TN

coe  CQCKLE

. E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B riefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cockleiegalbriefs.com
Fax: (402) 342-4850
No.
ERIC CHRISTOPHER HALL,
Petitioner,
v
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 3547 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 16th day of September, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

R GENERAL ROTARY State of Nebraska ud raw x Chi
RENEE J GOSS Q . a

Notary Public / Affiant

 

iy Comm. Exp. September 5, 2023

 

40110
